Washington, D.C. 20530

October 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Sheridan Sisk v. United States of America,
S.Ct. No. 21-5731
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 20,
2021, and placed on the docket on September 22, 2021. The government’s response is due on
October 22, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time to and
including November 22, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which was
delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.
Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5731
SISK, SHERIDAN
USA

THOMAS A. BRODNIK
MCNEELY LAW
143 W. MARKET STREET
STE. 600-A
INDIANAPOLIS, IN 46204
317-825-5110

